U.S. GOVERNMENT
PRINTING OFFICE                                                       Robert C. Tapella
KEEPING AMERICA INFORMED                                                     Public Printer




December 2,2010


The Honorable Charles E. Schumer
Chairman
Joint Committee on Printing
318 Russell Senate Office Building
Washington, DC 20510

Dear Mr. Chairman:

In accordance with 44 U.S.C. 3903 and the relevant provisions of the Inspector
General Act of 1978, as amended, I am transmitting to Congress the Semiannual
Report of the Office of the Inspector General (OIG) for the U.S. Government
Printing Office (GPO), covering the 6-month period of April 1 through September
30,2010, along with the following information as required by law. This letter
meets my statutory obligation to provide comments on the OIG's report and
highlights management actions taken on the OIG's recommendations, which may
relate to more than one repOliing period.

General Comments

As provided for by law, this section offers my general comments on the OIG's
semiannual report and operations.

I.        Management Challenges. In my view, the organizational and
          technological transformation that GPO began implementing in 2003
          remains critical to the future of GPO. To CatTY out that transfonnation
          successhllly, in this and previous reports the OIG has identified several
          challenges facing GPO's management that we are at various stages of
          addressing.

          I. Human Capital Operations and Management: Human Capital (HC)
             operations and management continue to be top priorities at GPO.
             During the past year, HC at GPO has undergone major changes in an
             effort to streamline, improve, and build in accountability and quality
             control. In addition to the reorganization of the department, we have
             tackled major changes to Federal hiring as mandated by the Office of
             Personnel Management (OPM). We have successfully complied with
             the elements of the hiring reform that apply to GPO, including use of
             categOlY rating, allowing resume and cover letter only as an initial
             application, and we have trained all of our supervisors and managers.



732 North Capitol Street, NW   Washington, DC 20401    202·512-1000      rtapella@gpo.gov
The Honorable Charles E. Schumer - Page 2


          We continue to automate our processes in order to improve timeliness,
          reduce errors, and improve our quality control processes. These
          initiatives are designed to better SUppOlt GPO's mission and to
          improve our customers' experience. We are cUlTently beginning the
          implementation of manager self-service, a key EmpowHR module that
          will move GPO away from paper SF-52s to an all-electronic system of
          HC processing. We believe that these improvements to the hiring
          process are a crucial step in overall improvement to HC management
          at GPO.

          Additionally, we are continuing planning at the strategic leveL We
          started this year with a comprehensive workforce analysis followed by
          a series of presentations and one-on-one meetings with business unit
          leadership on workforce planning. We have established new HC
          consultant positions that provide direct support to GPO managers to
          plan for upcoming recruitment, and both our policy office and GPO
          University are working together to issue an updated position
          management directive and in-depth position management training
          course as a new addition to the already robust supervisor series. These
          efforts will also improve overall HC management at GPO.

          GPO's Chief Operating Officer, acting Chief of Staff and the acting
          Chief Management Officer meet weekly with the ChiefHC Officer
          and staff to review key HC activities. HC issues are also regularly
          discussed at the weekly meeting of all GPO senior leaders. Senior
          managers have effectively used the recently revised performance
          management system to achieve significant results across GPO.

         We continue to be dedicated to continuous improvement. To that end,
         building on the FYIO performance metrics, and looking forward to
         FYII, all HC employees and managers will have specific measures of
         accuracy and timeliness as well as customer service as part of their
         performance plans. We are committed to furthering GPO's goals
         through strategic HC management, building on the success and
         leveraging the talent of our organization as well as critically evaluating
         and fixing areas in need of improvement.

      2. Information Technology Management and Security:

             a. Compliance with the Federal Information Management
                Security Act (FlSMA): GPO continues to make progress and
                improve controls related to FISMA requirements. A total of 14
                open OIG recommendations pertaining to FISMA were closed
The Honorable Charles E. Schumer - Page 3


                 in the reporting period and GPO is tracking potential changes
                 to FISMA that may occur based on draft legislative proposals
                 that have been made recently to ensure technology and budget
                 request plans and other resources are aligned with any changes
                 that may be enacted.

             b. Implementation a/the Federal Digital System: In the April
                20 I 0 FDsys program review, management indicated that the
                sunset of GPO Access would take place in a phased manner,
                starting with the final development release ofFDsys. The
                actual sunset activities for GPO Access will take 3 months,
                completing the technical activities in late December 2010.
                From a technical perspective FDsys was ready to be considered
                the system of record on September 30, 20 I O. However, there
                were and continue to be non-technical factors that GPO
                leadership is considering prior to the sunset of GPO Access.
                These mainly consist of communication activities to the end
                users of the system and assisting them in the transition that will
                likely extend into January. A detailed plan is being developed
                for these critical activities.

                GPO has instituted a rigorous change management and
                configuration process for information technology projects to
                help ensure that issues are being resolved and that we have a
                documented baseline of the code used in production. Issues
                identified through Program Tracking Reports (PTRs) are
                reported and corrected based on the severity ofthe issue. The
                Change Control Board (CCB) assesses the severity of issues
                and designates them as such. This level of severity detelmines
                the priority. Historically, GPO has found that new collections
                being introduced into the system result in a large number of
                PTRs. This seems to be largely a result of inconsistencies in
                the legacy data set. GPO uses very high quality standards for
                data migration, which has been a contributor to the PTR count
                since any issue found during the migrations process was logged
                as aPTR.

                Management concurs that testing is an area that needs
                additional attention. Over the past three years GPO has made
                great strides in improving test and configuration management
                areas, with the formation of the IT Quality organization.
                Additionally, GPO has recognized that system performance
                modeling and testing are a gap and have made good progress in
The Honorable Charles E. Schumer - Page 4


                 closing this gap. In the past 6 months, in anticipation of
                 enabling GPO's Continuity of Access (COA) instance, IT has
                 conducted perfonnance testing on the COA instance as well as
                 the production instance. Both of these instances performed
                 well under this stress testing and revealed areas in the design
                 and configuration where some changes will benefit the overall
                 system perfom1ance. One of these areas is in the application
                 server section of the system. This has been a known issue, and
                 validated by the solution provider, Oracle. As such, IT is now
                 upgrading to a new Oracle application server (WebLogics).
                 GPO held off on this upgrade until Oracle was comfortable that
                 WebLogics was ready to support FDsys.

                 Additionally, during enhanced testing of system perfonnance,
                 GPO uncovered areas outside of FDsys that required some
                 enhancements. For example, with FDsys having a public-
                 facing component at the legislative branch altemate computer
                 facility (the first public facing system to be operated at the
                 ACF), IT leamed of a need to improve GPO's network
                 configuration at the ACF. These enhancements have been
                 made and the bandwidth leading to the ACF is being increased
                 to mirror the perfonnance of the service coming to the GPO
                 main facility.

      3. Security and Intelligent Documents: As the Federal Govemment's
         leading provider of secure credentials and identity documents, Security
         and Intelligent Documents (SID) is a business unit that exemplifies
         GPO's transformation to high-technology production. During the
         OIG's reporting period, SID reported the successful manufacture of
         more than 7.7 million electronic passports for the State Department.
         The Washington DC facility produced over 5.4 million passports while
         the Secure Production Facility (SPF) at the Stennis Space Center, MS,
         produced more than 2.3 million passports. During FYIO, total
         passport production volume was 13,275,300.

         SID operates the Washington, DC-based Secure Credential Center
         (SCC) to support the Department of Homeland Security's Customs and
         Border Protection (DHS/CBP) Trusted Traveler Program (TTP), as
         well as other Federal secure ID card requirements. The SCC produced
         199,477 Trusted Traveler cards during FYIO, as well as the
         Department of Health and Human Services Center for Medicare and
         Medicaid Service's identification cards to citizens of Puerto Rico.
The Honorable Charles E. Schumer - Page 5


          In a significant accomplishment during the reporting period, SID
          completed the celiification process for the see to become a General
          Services Administration-certified and fully qualified secure card
          graphical personalization facility. The sec is now officially celiified
          to handle, graphically personalize, and distribute HSPD-12 PIV cards.
          The audits for this certification were completed in May 20 I 0; the GSA
          completed their assessment and certified GPO in November. This
          celiification allows the GPO's sec to more comprehensively serve
          Federal agency requirements for HSPD-12 cards and other secure
          credentials.

         During the reporting period, SID initiated new secure credential
         programs in support of other Federal agencies, including the State
         Department's Office of Foreign Missions and the Department of
         Homeland Security. Additionally, the secure credential product line of
         leather-bound secure flash badges for Federal law enforcement officers
         and Inspectors General is growing. SID now supplies more than 30
         Federal agencies with their leather bound badges.

         SID continued to conduct 5S Audits at both plant locations. 5S is a
         series of defined steps and audits that are intended to improve
         efficiencies in manufacturing process flows, equipment usage and
         placement, and environmental housekeeping standards.

         A major milestone was accomplished in July 2010 when the Stennis
         secure facility and SID personnel successfully completed the required
         audits and earned their IS0900 I certification. This globally-
         recognized certification for world class production, quality, and
         process improvement methodologies is a substantial and well-
         respected qualification. During the reporting period, the Washington
         De secure facilities and SID personnel underwent the rigorous
         IS09001 audits. In November 2010, SID was informed that they had
         received a strong positive recommendation from the auditors to award
         IS0900 I certification to the Washington De secure operations
         (passport production, secure card operations, and new product
         development) as well. Formal certification was received in late
         November.

         Additionally during the reporting period, SID completed the formal
         training of its entire workforce at both facilities in the subjects and
         concepts that are foundations of OHSAS (Occupational Health and
         Safety Systems) 18001. The OHSAS 18001 standards promote
The Honorable Charles E. Schumer - Page 6


          industry best-practices for occupational health and safety standards
          and programs in a production environment.

          SID is also working to develop the capability to manufacture secure
          blank card bodies through the procurement of card lamination and
          punch equipment and technologies that will result in more secure and
          controlled card production as well as lower costs and better service to
          our agency customers. Card lamination and punch equipment was
          delivered to SID in September 20 I 0 and the process of installation,
          standard operating procedure development, and operator training is
          underway. SID capability to manufacture secure blank card bodies is
          expected to be operational in FYII.

          SID is working closely with Plant Operations to establish a Secure
          Credential Testing Laboratory to conduct regular performance,
          durability, and quality tests of passports and credential products. The
          lab will eliminate costly third party commercial test laboratory
          expenses for these required product evaluations and provide an
          environment of greater governmental control and security for these
          activities. The secure facilities are presently under construction,
          equipment is on order, and personnel are being trained to support this
          crucial secure product testing environment. The Secure Credential
          Testing Laboratory is expected to be operational in FYI!.

          GPO, in cooperation with the State Department's Bureau of Consular
          Affairs, issued a Request for Proposal in June 20 I 0 for the
          procurement of eCovers used in the manufacturing of passports. The
          proposed eCovers will be compatible with existing GPO
          manufacturing and DOS passport personalization processes, and will
          be required to meet various external requirements and standards,
          including those of the International Civil Aviation Organization
          (ICAO) and the ISO.

      4. Internal Controls: Management concurred with KPMG's FY09
         financial statement audit findings and continues to recognize the
         importance of internal control over financial reporting. Specific
         monthly measures have been implemented to properly record and
         review propetiy, plant and equipment records, and new Oracle-based
         repotis are near completion which will enable a more timely and
         accurate reconciliation of both accounts payable and GPO's deposit
         accounts. Supervisory review procedures are now in effect to help
         reduce the risk of any further cash flow statement misclassifications.
The Honorable Charles E. Schumer - Page 7


          During the reporting period, SID and associated organizations
          implemented actions to address the recommendations ofthe OIG's
          review of GPO's e-passport supply chain security.

          GPO's Oracle financial system (GBIS) went live in May 2009. At that
          time, GPO decided to standardize its repoliing environment using the
          business intelligence tool Business Objects. Since that time,
          approximately 118 repOlis have been developed to bring visibility to
          all aspects of the data stored in GBIS. These reports, readily available
          in public folders, are being used to ensure a consistent look at the
          financial data and provide the ability to evaluate and address
          deficiencies.

          During the past year, GPO has added processes to address IT general
          and application controls. Security access controls have been addressed
          by examining all roles and responsibilities and bringing them under
          configuration management oversight. Assignmen *t of personnel to
          roles has been put under the control ofIT Security and officers within
          Financial Management. Developers' access to the Production instance
          of GBIS has been removed. All new development, modifications, and
          testing are being controlled by the GPO Configuration Management
          section. To address contingency planning, a secure VPN has been
          established at GPO's COOP site with the hosted Oracle On Demand
          environment in Austin, TX.

      5. Protection of Sensitive Information: As recommended in a February
         2009 Management Implication Report, a senior manager was
         appointed as Privacy Officer (PO). Subsequently, GPO hired a
         Privacy Program Manager (PPM) to implement rules of conduct and
         appropriate administrative, technical, and physical safeguards to
         ensure personally identifiable infonnation (PH) is identified and
         protected within all GPO business units and with GPO contractors as
         well. The PPM structured a Privacy Incident Response Team (PIRT)
         and incident reporting process to investigate and respond to incidents
         containing PH. These actions were completed by the end of FY 2010.

         GPO's Privacy Program fosters transparency and individual
         participation regarding how GPO uses PH responsibly to fulfill its
         mission. Working with GPO's business units, the PPM is targeting for
         completion, by the end of calendar year 20 I 0, privacy threshold
         analyses (PTAs), which will provide an overview ofPII collection and
         retention practices, as well as behaviors in handling of PIr. The PPM
         is currently working with GPO business units to implement behavior
The Honorable Charles E. Schumer - Page 8


          changes and privacy protections to ensure that the collection and use
          of PH is limited to the scope ofthe authorized activities, and that PH
          functions integrate all relevant privacy protections. The PPM is
          implementing Privacy Impact Assessments (PIAs) and, if required,
          System of Records Notices (SORNs) that embody the collaborative
          efforts of program management, technical, legal, and appropriate IT
          security safeguards to reduce and/or remove PH usage to minimum
          required levels. The completion of the compliance documentation is
          critical and requires analysis, recommendations, and approvals. These
          activities are to be completed by all business units by middle of the
          third quarter of FY 20 II.

          In addition, the PPM is working with GPO Employee Communications
          Office on developing a fiJll communication strategy and with GPO
          University to develop a training curriculum for all GPO employees and
          contractors on their responsibilities for protecting PH and complying
          with established guidelines. These steps are to be completed by the
          end ofFY 2011. The PPM also submitted a request GPO's IT services
          to provide an evaluation of a privacy online incident reporting website
          to be completed by the second quarter of FY 20 II.

          GPO's IT area provides technical support and analysis to the PH
          protection effort, including input on GPO's PH directive and technical
          assessments, (using software tools, of all GPO network attached
          storage systems for unprotected PI!. IT plans to continue the periodic
          assessments of GPO IT systems to detect unprotected PH data going
          forward, in accordance with GPO policies and procedures.

      6. Acquisitions and Print Procurement: The acquisition fimction
         assessment report is still ongoing in Acquisitions. We have contracted
         with the Procurement Strategy Board to assist us with the assessment.
         The goal was to have the assessment completed by the end of the
         reporting period, however, while developing the assessment
         procedures more time was required to fully develop. The assessment
         objectives are being finalized and should be launched and completed
         by second quarter FY 20 II. In addition, the issue of contract file
         information required by the Materials Management Acquisition
         Regulation (MMAR) was addressed in the responses to the e-Passport
         audit and we continue to place emphasis on effective contract
         administration of all contracts. Finally, GPO's financial area is
         reviewing the provisions of the Improper Payments Elimination
         Improvement Act as signed into law on July 22, 20 I 0, to determined
         actions to be taken by GPO.
The Honorable Charles E. Schumer - Page 9


      7. Financial Management and Pelformance: GPO's GBIS Oracle
         financial system went live in May 2009. At that time, GPO decided to
         standardize its repOliing environment using the business intelligence
         tool Business Objects. Since that time, approximately 118 repOlis have
         been developed to bring visibility to all aspects of the data stored in
         GBIS. These reports, readily available in public folders, are being
         used to ensure a consistent look at the financial data and provide the
         ability to evaluate and address deficiencies. Deficiencies with the
         design and/or operations of GPO's IT general and application controls
         were noted in security management, access controls, configuration
         management, and contingency planning.

      8. Continuity ojOperations: In September 2010, GPO's Business
         Continuity Office completed a COOP multi-year strategic plan
         outlining the agency's goals and objectives to ensure complete support
         of its mission essential functions. The three main goals of the plan are
         to establish all-hazards mobile capabilities, complete business unit
         COOP plans, and establish, update and implement COOP policies and
         directives. The plan was presented to and approved by the GPO
         operating committee. It was then presented to staff of the Committee
         on House Administration. The COOP multi-year strategic plan serves
         as a roadmap for COOP planning, tests, training, and exercises. The
         following represent significant COOP capability improvements and
         exercises during FY 2010:

          In another development, GPO assembled House and Senate fly-away
          kits to support the Enrolled Bill process. The kits are to support
          enrolled and engrossed printing at an alternate chamber and are
          composed of cases, printers, paper, cables, and other supplies. There
          is a kit for Senate and a kit for the House; each kit consists of three
          cases. The kits can be used at ad hoc COOP sites as needed.

          GPO is also completing Continuity of Access (COA) activities to
          ensure unintelTupted public access to gpo.gov and FDsys.

          During the reporting period, GPO conducted two successful exercises.
          The July 2010 House alternate chamber exercise completed all
          objectives to test notification systems for key staff, demonstrate onsite
          printing of enrolled/engrossed bills, validate fly-away kit contents,
          manuscript scanning conducted with file transfer via air card, simulate
          high-volume delivety of product to alternate site, simulate manuscript
          pick up from the alternate site, and receive electronic transfer of
          introduced Bill via FTP at the ACF. The October 2010 congressional
The Honorable Charles E. Schumer - Page 10


          products exercise tested composition (across 3 shifts) for the
          Congressional Record, committee report with graphics, bills, and
          calendar. It also tested OCR scanning, public' access posting to FDsys,
          printing procurement using GPO contracts, and file Transfer to the
          LOC and commercial vendors.

      9. Strategic Vision and Customer Service: Business units across GPO
         continue to align to changing customer requirements in support of new
         technologies and transparency initiatives throughout the Government.
         E-book publishing services in the Publications and Information Sales
         unit, new security card products in the Security and Intelligent
         Documents unit, and continuously expanded digital content offered on
         the FDsys platform are some of many examples. In keeping with
         elements ofthe May 2010 draft update to the Strategic Vision, GPO is
         making significant strides to improve a customer service and new
         business development culture. In Print Procurement, a simplified SF-I
         form was introduced along with a system to automatically notify
         customers of order receipt via email. Simplified and automated
         workflows have dramatically reduced errors and process time as well.
         Newly-Oappointed directors of sales and marketing have gained
         traction in the new Agency Accounts and Marketing business unit, as
         evidenced by over $16 million of new business generated over the past
         12 months by the National Account Manager team. During this time
         the marketing team organized and held over 50 presentations
         throughout the United States to introduce GPO services to Federal
         agency customers.

      10. Sustainable Environmental Stewardship: GPO's goal of environ-
          mental sustainability and stewardship is a continuous improvement
          initiative throughout the agency. GPO's Environmental Advisory
          Committee is continually evaluating and identifying creative ways to
          improve sustainability effolis in recycling, procurement, and energy
          efficiency that ultimately reduce GHG emissions. In calendar year
          2009, the most recent period for which complete figures are available,
          GPO's waste reduction activities successfully divelied 4,702 tons of
          waste from the landfill, representing recyclables directed to recycling,
          reuse, and compost facilities.

         Internally, GPO's office recycling programs collect mixed paper, cans,
         and bottles for recycling, and all paper, chemical, and metal waste
         from operations is evaluated and recycled if possible. In 2009, GPO
         redirected 87.5% of the waste steam to non-landfill uses. In
         conjunction with the Architect of the Capitol, GPO began feasibility
The Honorable Charles E. Schumer - Page 11


           and cost studies for composting cafeteria waste and use of
           compostable containers and utensils. GPO is testing and evaluating a
           comprehensive group of office and off-set paper options with higher
           recycled content, more sustainable manufacturing processes, and lower
           chemical environmental impact to offer to its customers. GPO's roof
           replacement project, which was completed in spring 20 I 0, contracted
           for approximately 100,000 square feet of Energy Star-rated and bio-
           based products. The contract also required recycling of old materials
           removed from the roof when possible.

           GPO continues to recognize economies of scale in purchasing and
           working with legislative branch partners. GPO's Environmental
           Services is developing chemical inventory systems and working with
           Acquisitions to review waste hauling contracts to benefits to the
           Agency. GPO is also improving infrastructure performance by
           retrofitting the steam system to improve efficiency and prioritize
           projects identified in a 2008 PEPCO Energy Survey Report-to reduce
           energy consumption and improve equipment and infrastructure to
           reduce energy costs. GPO will continue working on environmental
           stewardship and energy efficiency projects to improve the results.

II. Audits and Inspections. During the reporting period, the OIG issued 3 new
    audit and assessment reports, with recommendations to help improve
    operational perfornlance:

   •   Federal Digital System (FDsys) Independent Verification and Validation -
       Eleventh Quarter Report on Risk Management, Issues, and Traceability
       (Assessment Report 10-07, June 18,2010). This assessment continued the
       ongoing independent verification and validation (IV & V) evaluation
       associated with the development ofFDsys. The evaluation provides
       quarterly observations and recommendations on the FDsys program's
       technical, schedule, and cost risks, as well as related issues. This IV& V
       did not identify any new technical, cost, or schedule risks. The report
       discusses issues and concerns addressed in previous qUaIierly reports.

   •   Federal Digital System (FDsys) Independent Verification and Validation -
       Twelfth Quarter Report on Risk Management, Issues, and Traceability
       (Assessment Report 10-08, September 16, 2010). This evaluation also did
       not identify any new technical, cost, or schedule risks, and did not include
       any new recommendations. However, the evaluation discusses a number
       of issues wOlih noting as GPO implements the remaining efforts to
       complete Release 1 of FDsys.
The Honorable Charles E. Schumer - Page 12


   •    Web Trust Assessment o/GPO's Public Key In}i'astructure Certification
       Authority - Attestation Report (Assessment Report 10-09, September
       2010). This was an annual compliance review of GPO's Public Key
       Infrastructure Certification Authority. The assessment resulted in an
       attestation repOli expressing its unqualified opinion that management's
       assertion related to the adequacy and effectiveness of controls over its
       certification authority operations was, in all material respects, fairly stated
       based on the American Institute of Certified Public Accountants Web Trust
       for Certification Authority Criteria.

   In addition, the OIG serves as the Contracting Officer's Technical
   Representative for the audit of GPO's FY 2010 financial statements, which
   was begun by KPMG during the reporting period. Title 44, U.S.C., requires
   that GPO obtain an annual audit of its financial statements. The audit of
   GPO's FY 2009 financial statements was conducted by KPMG. KPMG
   issued an unqualified opinion on the statements, asserting that they were fairly
   presented, in all material respects, and in conformity with generally. accepted
   accounting principles. KPMG identified 2 significant deficiencies: financial
   reporting controls and information technology general and application
   controls. As the OIG;s Semiannual Report for the period October 1, 2009,
   through March 31, 2010, noted, KPMG made recommendations for each
   condition; management concurred with those recommendations and has either
   planned or initiated responsive corrective action.

   Prior Period Outstanding Recommendations. As required by law, this
   section summarizes management's actions to address OIG recommendations
   still outstanding from previous reporting periods:

   •   GPO Network Vulnerability Assessment (Assessment Report 06-02, March
       28, 2006). One recommendation made in this report remains open.

   •   Assessment o/GPO's Transition Planning/or Internet Protocol Version 6
       (IPv6) (Assessment Report 08-12, September 30, 2008). One
       recommendation remains open pending completion of GPO's ongoing
       infrastruchlre refresh.

  •    Federal Digital System (FDsys) Independent Verification and Validation
       (IV& V) - Fourth Quarter Report on Risk Managemellt, Issues, and
       Traceability (Assessment Report 09-01, November 4, 2008). Two
       recommendations remain open.
The Honorable Charles E. Schumer - Page 13


       •    Federal Digital System (FDsys) Independent Verification and Validation
            (IV& V) - Fifth Quarter Report 011 Risk Management, Issues, and
            Traceability (Assessment Report 09-03, December 24, 2008). Three
            recommendations remain open.

       •      Federal Digital System (FDsys) Independent Verification and Validation
             ~(IV& V) - Sixth Quarter Report on Risk Management, Issues, and
              Traceability (Assessment Report 09-07, March 20, 2009). Three
           '. recommendations remain open.

       •    Federal Digital System (FDsys) Independent Verification and Validation
            (IV& V) - Seventh Quarter Report on Risk Management, Issues, and
            Traceability (Assessment Report 09-12, September 30,2009). At the end
            of the reporting period, 17 recommendations remain open.

       •    Federal Digital System (FDsys) Independent Verification and Validation
            (IV& V) - Ninth Quarter Report on Risk Management, Issues, and
            Traceability (Assessment Report 10-01, December 2, 2009). Four
            recommendations remain open.

       •    GPO's Compliance with the Federal Information Security Management
            Act (Assessment Report 10-03, January 12,2010). As the OIG report
            states, management continues to work with the OIG to implement
            corrective actions on the remaining 14 open recommendations.

      •     Federal Digital System (FDsys) Independent Verification and Validation
            (IV& V) - Tenth Quarter Report on Risk Management, Issues, and
            Traceability (Assessment Report 10-05, March 24,2010). Three
            recommendations remain open.

   III. Investigations. During the repoliing period, the OIG performed investigative
       work on procurement fraud, workers' compensation fraud, employee
       misconduct, and other matters including theft, illegal hacking, or other
        matters, as detailed in the OIG's report. In some cases this work resulted in
       evaluation for possible civil or criminal action by the Justice Department, and
        in others in proposals for GPO internal corrective action. These activities
       demonstrated the value of OIG investigators in protecting GPO from waste,
       fraud, and abuse.

   IV. Statistical Tables.

      Statistical tables as required by law are enclosed.
The Honorable Charles E. Schumer - Page 14


If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-512-1991, or bye-mail at asherman@gpo.gov.

Sincerely,




ROBERT C. TAPELLA
Public Printer

Enclosures

cc:    The Honorable Robert Brady, Vice Chairman
       The Honorable Dan Lungren, Ranking Minority Member
       The Honorable Patty Murray
       The Honorable Tom Udall
       The Honorable Robert Bennett
       The Honorable Saxby Chambliss
       The Honorable Michael Capuano
       The Honorable Susan A. Davis
       The Honorable Kevin McCarthy
ENCLOSUREl

                   STATISTICAL TABLE FOR SECTION 5(b)(2) - DISALLOWED COSTS

                                                          Number of       Disallowed Costs
                                                         Audit Re~orts Questioned U nsuQQorted
A.      Audit reports for which final action I had
        not been taken by the commencement
        of the reporting period                                 0               0            0

        Audit reports issUed during the period
        with potential disallowed costs                         0               0            0

        Total Costs                                             0               0            0

B.      Audit repoi·ts on which management
        decisions' were made during the
        reporting period

        ( i.)    Dollar value of disallowed costs              0            0               0

        (ii.)    Dollar value of allowed costs                 0            0               0

C.      Audit reports for which final action
        was taken during the period, including:

        ( i.)    Dollar value of disallowed costs               0           0                0
                 that were recovered by management
                 through offsets against other
                 contractor invoices or nonpayment

        (i i.)   Dollar value of disallowed costs               0           0               0
                 that were written offby management

D.      Audit reports for which no final                        0           0               0
        action has been taken by the end
        of the reporting period




I As dell ned by law, the term "final action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occurs when a management decision has been made.
2 As defined by law, the term "management decision" means the evaluation by management of the
findings ancl recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


     STATISTICAL TABLE FOR SECTION 5(b)(3) -FUNDS PUT TO BETTER USE
                 AGREED TO IN A MANAGEMENT DECISION

                                                        Number of        Dollar Value of
                                                        Audit Rel20lis   Recommendations
A.      Audit repotis for which final action 3 had
        not been taken~by the commencement of
        the reporting period                                    0                   0

        Audit repOlis for which final action had
        not been taken for new reports issued
        during the reporting period with potential
        funds put to better use
                                                               0                    0
B.      Audit reports on which management
        decisions4 were made during the reporting
        period                                                 0                    0

C.      Audit repotis for which final action was
        taken during the reporting, including:

        ( i.)    Dollar value of recommendations
                 that were actually completed                  0                    0

        (ii. )   Dollar value of recommendations
                 that management has subsequently
                 concluded should not or could not
                 be implemented or completed                   0                    0

D.      Audit repotis for which no final action has
        been taken by the end of the reporting period          0                    0




3 Same definition as in Enclosure L
" Same definition as in Enclosure L
